                                     Office of Inspector General
                                     U.S. Small Business Administration



                                                                                                  October 2011 Update


  Business Loans                                                      Disaster Loans
  Georgia Woman Sentenced on Conspiracy Charge                        Louisiana Man Pleads to Theft of Government Funds
  On October 5, 2011, the owner of a learning academy                 On October 14, 2011, a Louisiana man pled guilty in
  was sentenced to 30 months confinement, 36 months                   U.S. District Court, Eastern District of Louisiana, to one
  probation, a special assessment fee of $100, and                    count of theft of government funds. The plea resulted
  restitution of $1,675,213. She had previously pled guilty,          from an investigation that found he made false statements
  in the Northern District of Georgia, to one count of                to the SBA and the Department of Housing and Urban
  conspiracy to defraud the United States. She was                    Development (HUD) in an attempt to receive benefits to
  accused of orchestrating the straw sale of her business             which he was not entitled. The subject had been
  using a 504 loan package worth $3,175,000, with the                 approved for an SBA disaster home loan of $141,800, as
  help of an unindicted co-conspirator. The owner caused              a result of damage to his home by Hurricane Katrina. The
  the unindicted co-conspirator to falsely state that the sale        investigation revealed that he submitted false receipts for
  would be supported by an equity injection of $296,200               repairs to his home and received loan disbursements
  from the borrower when, in fact, no equity at all would             totaling $141,800 from the SBA. This is a joint
  be provided by the borrower. This is a joint                        investigation with the HUD OIG.
  investigation with the Federal Bureau of Investigation
  (FBI).                                                              Louisiana Man Pleads in Katrina Related Crime
                                                                      On October 20, 2011, a Louisiana man pled guilty in
  Chicago Loan Officer Pleads Guilty                                  U.S. District Court, Eastern District of Louisiana, to one
  On October 11, 2011, a Chicago-area entrepreneur and                count of theft of government funds. The investigation
  former commercial loan officer pled guilty to one count             revealed that the subject fraudulently represented the
  of financial institution fraud, and was sentenced to 23             location of his primary residence when applying for
  months probation and 300 hours of community service in              Hurricane Katrina disaster assistance from the SBA,
  the Circuit Court of Cook County. In addition, he was               HUD, the Federal Emergency Management Agency, and
  required to submit to a stipulation and consent order with          Louisiana and Mississippi State Grant programs. The
  the Federal Deposit Insurance Corporation (FDIC),                   subject had been approved for an SBA loan of $88,800;
  prohibiting his employment in the banking industry and              however, only $10,000 was disbursed. This is a joint
  his participation in the affairs of financial institutions for      investigation with the HUD OIG, the Department of
  a minimum period of 10 years. The loan officer was                  Homeland Security OIG, and the Mississippi State Grant
  previously indicted in connection with multiple attempts            Authority.
  to defraud the SBA, an SBA Certified Development
  Company (CDC), and four participating banks when he                 Government Contracting & Business
  tried to sell his business, an Illinois gas station. The
                                                                      Development
  investigation revealed that the loan officer directed his
  colleague and friend, a Chicago-area commercial loan
                                                                      Executive Vice President Pleads to Conspiracy Charge
  broker, to prepare false corporate financial statements
                                                                      On October 13, 2011, the executive vice president of a
  portraying the business as profitable in order to profit
                                                                      technology firm entered a plea of guilty to conspiracy to
  from the sale of his failing business. The subject
                                                                      commit wire fraud in U.S. District Court for the District
  provided the falsified financial statements to the CDC
                                                                      of Columbia. The investigation revealed the subject
  and four SBA lenders to receive SBA-guaranteed loan
                                                                      conspired with others to defraud the United States and
  packages totaling $6.18 million. Any of these fraudulent
                                                                      obtain money and property by means of false and
  loans could have exposed the lender and the SBA to
                                                                      fraudulent pretenses and representations. Specifically, he
  increased loss potential. This is a joint investigation with
                                                                      submitted false information to federal agencies to
  the FDIC OIG.
                                                                      procure and attempt to procure federal contracts and to


Monthly Update on Activities of the SBA Office of Inspector General
set and attempt to set prices on federal contracts. This is           on Small Business, regarding Preferential Contracting
a joint investigation with the FBI, the Department of                 Programs and related audits and investigations. Her
Veterans Affairs (VA) OIG, the General Services                       appearance before the subcommittee was in response to
Administration (GSA) OIG, and the Department of Labor                 an invitation by Chairman Coffman to testify about the
(DOL) OIG.                                                            problem of companies making false statement in order to
                                                                      obtain preferential contract awards under the five small
Executive Vice President Indicted on Four Counts                      business contracting programs. Ms. Gustafson provided
On October 14, 2011, a four-count indictment against the              insight into recent criminal investigations conducted by
executive vice president of an information technology                 OIG criminal investigators, as well as findings from
firm was unsealed in U.S. District Court for the District             recent audits. Several legislative proposals were offered
of Columbia. The indictment charges the subject with                  by the Inspector General in her testimony, and other
conspiracy, false statements, mail fraud, and wire fraud.             recommendations to curb fraud in the programs were
The indictment alleges the subject conspired with others              discussed at the hearing.
to defraud the United States and obtain money and
property by means of false and fraudulent pretenses and
representations. Specifically, he allegedly submitted
                                                                      Agency Management
false information to the SBA regarding his firm’s
                                                                      Former SBA Employee Sentenced
eligibility as both Service Disabled Veteran Owned
                                                                      On October 27, 2011, a former SBA program manager
(SDVO) and Historically Underutilized Business Zone
                                                                      was sentenced in U.S. District Court for the District of
(HUBZone) small business concerns. In addition, he is
                                                                      Columbia to 30 months’ probation, restitution of
charged with attempting to set and setting prices on
                                                                      $11,736, and a special assessment fee of $25.00.
federal contracts through GSA. He is also charged with
                                                                      On July 20, 2011, she pled guilty to one count of theft of
providing false information to other federal agencies to
                                                                      government property and one criminal forfeiture count.
attempt to procure and procure federal contracts. This is
                                                                      The investigation disclosed that the subject forged her
a joint investigation with the FBI, VA OIG, GSA OIG,
                                                                      supervisor’s signature on travel authorizations and
and DOL OIG.
                                                                      vouchers and used her government travel card to rent
                                                                      automobiles for personal use. As a result of her false
U.S. Army Corps of Engineers Employees and Two
                                                                      claims, the government paid fraudulent travel costs
Others Indicted in $780 Million Scheme
                                                                      totaling nearly $7,920. On October 20, 2010, the subject
On October 4, 2011, a four-count indictment, previously
                                                                      was removed from her position at the SBA.
filed on September 16, 2011, was unsealed in the District
of Columbia. The indictment charges a program
                                                                      Former SBA Employee Sentenced on Wire Fraud Charge
manager and a program director from the U.S. Army
                                                                      On October 12, 2011, a former SBA lender relations
Corps of Engineers (USACE) with conspiracy, bribery,
                                                                      officer was sentenced in the Northern District of Illinois
and conspiracy to launder monetary instruments. Two
                                                                      to 33 months in prison, 3 years supervised release, and
others were also indicted. The program manager’s son
                                                                      restitution of $400,000. The sentencing resulted from his
was charged with conspiracy and conspiracy to launder
                                                                      guilty plea to one count of wire fraud based on entries he
monetary instruments while the director of contracts for a
                                                                      made into SBA databases, which traveled electronically
technology firm was also charged with conspiracy,
                                                                      across state lines, affecting interstate commerce. The
unlawful kickbacks, and conspiracy to launder monetary
                                                                      subject was responsible, in part, for resolving issues
instruments. The indictment alleges that the four
                                                                      related to the charge-off of SBA business and disaster
conspired against the United States to steer a $780
                                                                      loans that were secured by real estate. His duties
million government contract to a favored government
                                                                      included determining the current market value of the
contractor. The group was also engaged in other offenses
                                                                      properties, securing the loans, and determining if the
relating to the promised payment, solicitation, and
                                                                      assets could be recovered from SBA loan debtors. He
laundering of bribe and kickback payments in excess of
                                                                      was also responsible for selling various delinquent loans
$20 million. This is a joint investigation with the FBI, the
                                                                      to private equity investors. The investigation disclosed
Defense Criminal Investigative Service, the Internal
                                                                      that he recommended selling 25 delinquent loans for
Revenue Service - Criminal Investigations, and the U.S.
                                                                      below their value to his stepbrother and son-in-law
Army Criminal Investigation Division.
                                                                      without disclosing the familial relationships involved or
                                                                      the true value of each loan, to the SBA. The civil
Inspector General Provides Testimony
                                                                      division at the U.S. Attorney’s Office plans to pursue
On October 27, 2011, SBA Inspector General Peggy E.
                                                                      civil action to recover these funds. This is a joint
Gustafson testified before the House Subcommittee on
                                                                      investigation with the FBI.
Investigations, Oversight, and Regulations, Committee



Update on the Activities of the SBA Office of Inspector General   2                                        October 2011
      Peggy E. Gustafson, Inspector General

 If you are aware of suspected waste, fraud, or abuse
 in any SBA program, please report it online at
 http://www.sba.gov/office-of-inspector-
 general/2662

  Or call the OIG Hotline toll-free, at (800) 767-0385

 The OIG has established an e-mail address,
 oig@sba.gov that we encourage the public to use to
 communicate with our office. We welcome your
 comments concerning this update or other OIG
 publications. To obtain copies of these documents
 please contact:

                        SBA OIG
              409 Third Street SW, 7th Floor

                 Washington, DC 20416

                  E-mail: oig@sba.gov

            Telephone number (202) 205-6586

              FAX number (202) 205-7382


 Many OIG reports can be found on the OIG’s
 website
 http://www.sba.gov/office-of-inspector-general




Update on the Activities of the SBA Office of Inspector General   3   October 2011
